Report No. DODIG-2012-128              September 19, 2012




      Fees and Surcharges Assessed on Afghanistan
     Security Forces Fund Orders Need Improved Cost
                        Accounting
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AFCEE                         Air Force Center for Engineering and the Environment
ANSF                          Afghan National Security Forces
ASFF                          Afghanistan Security Forces Fund
CAS                           Contract Administration Services
CECOM                         U.S. Army Communications–Electronics Command
CSTC-A                        Combined Security Transition Command–Afghanistan
DFAS                          Defense Finance and Accounting Service
DIFS                          Defense Integrated Financial System
DoD FMR                       DOD Financial Management Regulation
DSCA                          Defense Security Cooperation Agency
FM&C                          Financial Management and Comptroller
FMS                           Foreign Military Sales
USACE                         U.S. Army Corps of Engineers
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial
                                 Officer, DoD
USD(P)                        Under Secretary of Defense (Policy)
USTRANSCOM                    U.S. Transportation Command
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                               September 19, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (POLICY)
               DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY

SUBJECT: Fees and Surcharges Assessed on Afghanistan Security Forces Fund Orders Need
         Improved Cost Accounting (Report No. DODI G-20 12-128)

We are providing this report for review and comment. We evaluated the fees and surcharges
assessed by DoD components on orders funded by Afghanistan Security Forces Fund (ASFF)
appropriations and whether the components supported the fees and surcharges with actual costs.
DoD components generally identified actual costs to support the fees and surcharges assessed
when fulfilling ASFF orders. However, the Defense Security Cooperation Agency needed to
improve its cost accounting for the $2.8 billion in three Foreign Military Sales Trust Fund
surcharge accounts to ensure that its surcharge rates were reasonable estimates of actual
expenses and that it paid transportation expenses from the proper source of funding. We
considered management comments on a draft of this report when preparing the fmal report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The comments
received from the Under Secretary of Defense (Policy) were partially responsive. Therefore, we
request that the Under Secretary provide additional comments on Recommendation 1 by
October 19, 2012. The comments from the Director, Defense Security Cooperation Agency,
were partially responsive. Therefore, we request that the Director provide additional comments
on Recommendation 2 by October 19,2012.

If possible, send a portable document format (.pdf) file containing your comments to
auddpao@dodig.mil. Comments provided on the fmal report must be marked and portion-
marked, as appropriate, in accordance with DoD Manual5200.01. Copies of management
comments must contain the actual signature of the authorizing official. We are unable to accept
the /Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945, DSN 329-5945.


                                               d~rl/~
                                                 LorinT. Venable
                                                 Acting Assistant Inspector General
                                                 DoD Payments and Accounting Operations
Report No. DODIG-2012-128 (Project No. D2011-D000FD-0121.000)                      September 19, 2012

              Results in Brief: Fees and Surcharges
              Assessed on Afghanistan Security Forces Fund
              Orders Need Improved Cost Accounting
  What We Did                                           whether it properly used ASFF appropriations
                                                        when it made transfers between the
  We reviewed the fees and surcharges assessed by
                                                        administrative and transportation expense
  DoD components when they fulfilled orders
                                                        surcharge accounts.
  funded by the Afghanistan Security Forces Fund
  (ASFF) and how they identified their actual costs     As a result, it was unclear whether DSCA
  to support the fees and surcharges assessed.          assessed appropriate surcharges to pay for the
                                                        actual expenses for ASFF cases or how much of
  What We Found                                         the $2.8 billion balance in the three surcharge
  The U.S. Army Corps of Engineers and the              accounts resulted from high rates for ASFF cases.
  Air Force Center for Engineering and the              Further, a DSCA transfer of $130 million from
  Environment generally had appropriate cost            the administrative account to clear deficits in the
  accounting procedures; however, the Defense           transportation account may have subsidized sales
  Security Cooperation Agency (DSCA) did not            of military equipment and services to foreign
  maintain adequate cost accounting records that        governments with ASFF appropriations.
  showed whether three surcharge rates represented      Improved cost accounting and a DoD working
  reasonable estimates of actual costs on Foreign       group would facilitate cost-saving measures, such
  Military Sales cases funded by ASFF                   as those advocated by the Secretary of Defense.
  appropriations (ASFF cases). Specifically,            Such measures could reduce future estimated
  DSCA collected the following surcharges:              administrative surcharges DSCA expects to
     Administrative: over $848 million from            collect on ASFF cases (DSCA expected to collect
      cases funded by FY 2005 through FY 2011           $185 million on FY 2012 appropriations), which
      ASFF appropriations, but its cost records did     would help free up funds for operations in
      not support the surcharge rate.                   Afghanistan.

     Contract administration services (CAS): an
                                                        What We Recommend
      unknown amount and it could not compare              The Under Secretary of Defense (Policy)
      actual expenses to surcharges collected.              should establish a working group to review
                                                            surcharge policies, rates, and accounting
     Transportation expense: an unknown amount             requirements related to ASFF orders.
      and it could not identify the expenses for each
      ASFF case.                                           The Director, DSCA, should implement
                                                            policy to require detailed cost accounting
  This occurred because DSCA did not have                   procedures. The policy should ensure that the
  adequate policies and procedures that required            DSCA rates reasonably reflect actual costs
  preparation of detailed cost accounting records to        for ASFF cases, identify actual CAS and
  support surcharge rates with actual cost data or to       transportation expenses, and establish
  use available cost data when reviewing the CAS            controls to segregate appropriated and foreign
  and transportation expense surcharge rates. Also,         country funds in the surcharge accounts.
  DSCA did not have policies to determine



                                                            i
Report No. DODIG-2012-128 (Project No. D2011-D000FD-0121.000)                           September 19, 2012

Management Comments and                                    and the DoD FMR did not mandate the specific
Our Response                                               systems or level of detail by which an agency
Comments from the Under Secretary of Defense               must collect and report data. The Director also
(Policy) and Director, DSCA, were partially                stated that DSCA was developing an enterprise
responsive. The Under Secretary stated than an             resource planning system to expand the
executive steering committee already existed to            integration of financial and logistics systems.
oversee the creation and implementation of the
planned Security Cooperation Enterprise                    We request that the Under Secretary of Defense
System. The executive steering committee                   (Policy) and the Director, DSCA provide
includes the key stakeholders for the FMS                  additional comments that specifically identify
process; therefore, a new working group would              the improved processes and controls developed
only duplicate that effort.                                in the Security Cooperation Enterprise System
                                                           that will allow DSCA to compare its surcharge
The Director stated that DSCA maintained an                rates to the actual costs of providing the related
adequate and compliant resource management                 services. Please see the recommendations table.
system to support the application of surcharges




   Recommendations Table

             Management                    Recommendations                 No Additional Comments
                                          Requiring Comment                      Required
   Under Secretary of Defense                      1
   (Policy)

   Director, Defense Security                     2.a, 2.b, 2.c
   Cooperation Agency


   Please provide comments by October 19, 2012.




                                                          ii
Table of Contents

Introduction                                                             1

      Audit Objective                                                    1
      Background on ASFF Surcharges                                      1
      DSCA Did Not Have Cost Accounting Records for ASFF Surcharges
         or Policies to Determine Whether Transfers Between Accounts
         Were Proper                                                     6

Finding. Improvement Needed in DSCA Cost Accounting for Surcharges
Assessed on Afghanistan Security Forces Fund Orders                      7

      Cost Accounting Requirements                                      8
      USACE and AFCEE Maintained Adequate Cost Accounting Records       8
      DSCA Needed Better Cost Accounting Records and Management of
         Surcharge Accounts                                              9
      Management Actions on Transportation Expenses                     16
      DSCA Cost Accounting Did Not Identify Actual Costs to Support
         Surcharges Assessed on ASFF Orders                             16
      Defense Security and Cooperation Agency Comments on the Finding   18
      Our Response                                                      19
      Recommendations, Management Comments, and Our Response            20

Appendix. Scope and Methodology                                         23
     Use of Computer-Processed Data                                     24
     Prior Coverage on Fees and Surcharges Assessed on Afghanistan
         Security Forces Fund Orders                                    25

Glossary                                                                26

Management Comments

      Under Secretary of Defense (Policy)                               28
      Defense Security Cooperation Agency                               30
Introduction
Audit Objective
The audit objective was to determine what fees and surcharges were applied by DoD
components when they fulfilled orders funded by Afghanistan Security Forces Fund
(ASFF) appropriations and whether actual costs supported the fees and surcharges we
identified. See the Appendix for our scope and methodology and prior coverage on fees
and surcharges assessed on Afghanistan Security Forces Fund orders or related costs.

Background on ASFF Surcharges
Afghanistan Security Forces Fund
Congress enacted Public Law 109-13, ‘‘Emergency Supplemental Appropriations Act for
Defense, the Global War on Terror, and Tsunami Relief, 2005,’’ on May 11, 2005, to
establish ASFF. Through January 2012, 12 public laws have appropriated $50.9 billion
to ASFF. Public Law 109-13 designated ASFF appropriations to provide assistance to
the Afghan National Security Forces (ANSF), “including the provision of equipment,
supplies, services, training, facility and infrastructure repair renovation, and construction,
and funding.”

ASFF Appropriations Allocation and Project Execution
Congress designated the ASFF appropriations to the Secretary of Defense for the
Secretary to allow the Commander, Combined Security Transition Command–
Afghanistan (CSTC-A) to provide the desired support to Afghanistan’s security forces.
The Deputy Secretary of Defense directed the Secretary of the Army to provide funds
distribution and accounting support through the Defense Security Cooperation Agency
(DSCA). For appropriations that funded ASFF through FY 2009, substantially all
purchasing activity by CSTC-A was conducted through the DSCA Foreign Military Sales
(FMS) Program.

Starting in FY 2010, the Assistant Secretary of the Army (Financial Management and
Comptroller), allocated the funds appropriated for ASFF between CSTC-A and DSCA.
                                       The FY 2010 project flow for ASFF
        CSTC-A did not incur the       appropriations and the fees charged are shown in
       DSCA fees and surcharges        Figure 1. The allocation of ASFF appropriations
      discussed later in this report   directly to CSTC-A allowed the commander in
        for local purchasing and       Afghanistan to execute local purchasing and
     infrastructure projects funded    infrastructure projects without using the DSCA
     by ASFF appropriations after      FMS process. Accordingly, CSTC-A did not
                FY 2009.               incur the DSCA fees and surcharges discussed
                                      later in this report for local purchasing and
infrastructure projects funded by ASFF appropriations after FY 2009.


                                              1
              Figure 1. FY 2010 ASFF Project Flow and Fees Charged




Beginning in FY 2010, CSTC-A ordered ASFF goods and services in three ways. First,
CSTC-A ordered construction services from the U.S. Army Corps of Engineers (USACE)
and Air Force Center for Engineering and the Environment (AFCEE) on military
interdepartmental purchase requests. Second, CSTC-A contracted directly with local
Afghan suppliers for goods and services. CSTC-A received an allocation of $4.7 billion
in ASFF appropriations for FY 2010 for the infrastructure projects as well as to make
local purchases. Third, CSTC-A continued to purchase equipment and training through
the DSCA FMS process. DSCA received an allocation of $4.3 billion in ASFF
appropriations for FY 2010 for that purpose.
Fees and Surcharges Assessed on ASFF Orders
Orders placed with other Federal agencies are subject to the requirements of the
Economy Act. The Economy Act requires Federal agencies providing goods and services
to other Federal agencies to charge the actual cost of the goods and services provided. To
                                            2
meet this requirement and collect reimbursement for their full costs, the providing
agencies assess fees and surcharges on customers. USACE and AFCEE assessed fees for
supervision of the infrastructure projects. DSCA assessed surcharges to cover
administrative, contract administration, and transportation expenses for the cases it
processed. For additional details regarding the fees and surcharges assessed on ASFF
orders, please refer to the Glossary. Table 1 illustrates the key fees and surcharges
collected on ASFF orders.

        Table 1. Fees and Surcharges Assessed and Collected on ASFF Orders
 Ordering Providing         Fee or Surcharge      How                          Cost
 Agency   Agency            Description           Assessed            Rate     Methodology
                                                  Percentage fee on
                            Supervision and       project contract             Identified costs
                                                                      7% to
            USACE           Administration        value collected              charged to
                                                                      9%
                            Fee                   and deposited to             revolving fund
                                                  revolving fund.
 CSTC-A                                                                        Identified costs
                                                                               accumulated
                            Supervision,          Percentage fee
                                                                               and billed
            AFCEE           Inspection, and       used for order      4.5%
                                                                               monthly on a
                            Overhead Fee          estimate.
                                                                               reimbursable
                                                                               basis
                                                                               Components
                                                                               received
            Military        Administrative        Percentage Fee
                                                                      3.8%     allotments from
            Departments     Surcharge             on order value
                                                                               surcharge
            and Other
                                                                               account
            Defense
                            Contract              Percentage fee on
            Organizations                                                      Service
                            Administration        ordered goods
            (including                                                1.5%     providers send
                            Services              and services
            security                                                           billings
 DSCA                       Surcharge             contract value
            assistance
                                                  Table of values
            commands,
                                                  of estimated cost   Varies
            materiel
                                                  of transport        based
            commands,                                                          Service
                            Transportation        provided by U.S.    on
            life cycle                                                         providers send
                            Surcharge             Transportation      mode
            commands,                                                          billings
                                                  Command based       and
            and so forth)
                                                  on mode and         region
                                                  region

    CSTC-A did not collect any        CSTC-A ordered local purchases in Afghanistan
     fees or surcharges on the        directly with the vendors of the goods and services
    purchase orders it placed.        and did not involve other DoD components in those
                                      purchases. CSTC-A did not collect any fees or
surcharges on the purchase orders it placed, either with other DoD components or non-
Government vendors.




                                              3
Costs Supporting Fees and Surcharges Assessed on
Infrastructure Projects Overseen by USACE and AFCEE
USACE identified its expenses related to execution of ASFF projects to the district
offices performing the work. The Afghanistan Engineering Districts are a separate
operating and accounting entity. USACE operated an authorized revolving account for
its supervision and administration expenses. It charged this account for those expenses
when incurred. USACE regularly reviewed the revolving account to monitor the balance
that resulted from the collection of the percentage fee on orders and the expenses charged
to the account. USACE maintained a balance that covered approximately 4 months of
supervision and administration expenses and was working to reduce the balance to
3 months.

AFCEE entered into a memorandum of understanding with CSTC-A to perform
supervisory, inspection, and oversight services for its management of Afghanistan
projects. It identified its costs of such services through timekeeping and specific
identification of direct expenses, collected the total of such expenses monthly, and
prepared billings to recover those costs. Therefore, its revenue collections matched its
identified costs for the services it provided. USACE and AFCEE maintained sufficient
processes and accounting records to demonstrate that they based their rates on actual
costs and the estimates could adjust to actual expenses when they were known.

Costs Supporting Fees and Surcharges Assessed on Military
Equipment and Training Orders Using the DSCA FMS Process
DSCA is the designated DoD organization operating U.S. Government security assistance
programs providing military goods and services to foreign countries. DSCA coordinates
FMS and U.S. military assistance in the event of disasters around the world, facilitates
the upgrading of partner countries’ equipment and training, and monitors the end-use of
U.S.-provided military equipment. Standard FMS are sales in which a friendly foreign
government buys military equipment and services from the United States. It does not
rely on U.S.-appropriated funds. However, in 2005, Congress appropriated funds to
enable the commander in Afghanistan (currently CSTC-A) to equip, sustain, and train the
ANSF.

As discussed earlier, DSCA was allocated ASFF appropriations and directed to provide
support to CSTC-A. DSCA elected to use its established FMS process to fulfill requests
from the commander in Afghanistan to provide durable military equipment and training
                                       to support that country’s security forces.
    DSCA personnel treated ASFF        Accordingly, DSCA deposited U.S.-appropriated
     cases the same as they would      funds into the DSCA-managed FMS Trust Fund
      treat a standard FMS case.       and used those funds to complete the objectives of
                                       the ASFF. DSCA personnel treated ASFF cases
the same as they would treat a standard FMS case, except for tracking the appropriate
expiration and cancellation of the funds as required by appropriation law.




                                            4
                                       DSCA assessed and collected various fees and
    DSCA assessed and collected
                                       surcharges on ASFF orders, the most substantial of
   various fees and surcharges on
                                       which were the administrative, contract
       ASFF orders, the most
                                       administration services (CAS), and transportation
    substantial of which were the
                                       surcharges. For accounting purposes, the Defense
      administrative, CAS, and
                                       Finance and Accounting Service (DFAS) created
     transportation surcharges.
                                       separate accounts for these collections within the
                                     FMS Trust Fund. DSCA paid the expenses related
to the surcharges it collected on FMS cases, including ASFF cases, from these accounts.
DoD organizations that provide support to the FMS Program must recoup the full cost to
provide such support.

Administrative Surcharge
The administrative expenses of operating the FMS process were primarily personnel costs
(U.S. Government and contractor-furnished) required to develop, execute, and close FMS
cases. Initially each year, to identify and fund these administrative expenses, DSCA
reviewed and approved budgets submitted by DoD components that performed those
functions in the administration of FMS cases. DSCA provided budget authority through
allotments from the administrative surcharge account to those components. The components
directly cited the budget authority provided by DSCA or billed to reimburse their funds as
they incurred expenses.

DSCA allocated the administrative surcharge account funding to organizations
performing support services. Figure 2 shows the organizations receiving the annual budget
authority allocated by DSCA from the administrative surcharge account for FY 2009 through
FY 2011. The average annual administrative distribution from FY 2009 through FY 2011
was $627 million.
              Figure 2. Average Annual Budget Allotments to DoD Activities
                       From the Administrative Surcharge Account
                             FY 2009-FY 2011 (in millions)

   Community Programs           $22.1

                   Other         $26.4

          Direct Reports         $28.0

     DSCA Headquarters           $31.3

       Defense Agencies            $42.2

               Overseas             $47.3

                MILDEPS                                                       $429.9


 Note: See the Glossary for descriptions of the allotment categories.    Source: DSCA


                                                    5
Contract Administration Services Surcharge
DSCA used the CAS surcharge account differently when paying expenses. For CAS,
DSCA provided reimbursable authority for the Defense Contract Management Agency,
the Defense Contract Audit Agency, and two smaller organizations in the Army and
Navy to perform contract management and audit services. These organizations prepared
billings monthly for work performed. Organizations receiving funding from the CAS
surcharge account did not receive funding from the administrative surcharge account.

Transportation Expenses
DSCA provided budget authority for transportation expenses when the requesting
activities placed purchase orders with DoD components. When DoD providing agencies
received goods and services, they billed the FMS Trust Fund or directly cited that
appropriation to pay for transportation expenses.

DSCA Did Not Have Cost Accounting Records for ASFF
Surcharges or Policies to Determine Whether Transfers
Between Accounts Were Proper
Internal control weaknesses in DSCA’s accounting and cost analysis existed as defined
by DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010. DSCA personnel did not prepare detailed cost accounting records to
support surcharge rates with actual cost data or determine whether DSCA properly used
ASFF appropriations when it made transfers between the administrative surcharge
account and the transportation expense account. We will provide a copy of the report to
the DSCA senior official responsible for internal controls.




                                           6
Finding. Improvement Needed in DSCA
Cost Accounting for Surcharges Assessed
on Afghanistan Security Forces Fund Orders
The U.S. Army Corps of Engineers (USACE) and Air Force Center for Engineering and
the Environment (AFCEE) generally had appropriate cost accounting procedures when
they assessed fees and surcharges while fulfilling Afghanistan Security Forces Fund
(ASFF) orders. However, the Defense Security Cooperation Agency (DSCA) did not
maintain adequate cost accounting records that showed whether three of its surcharge
rates represented reasonable estimates of actual costs on Foreign Military Sales (FMS)
cases funded by ASFF appropriations (ASFF cases). Specifically, DSCA collected:
          Administrative surcharges of approximately $848 million1 on cases funded
           by FY 2005 through FY 2011 ASFF appropriations, but did not maintain adequate
           cost records that directly supported the surcharge rate.
          Contract administration services (CAS) surcharges of an unknown amount on
           ASFF cases and lacked adequate cost accounting records to compare actual
           expenses to surcharges collected.
          Transportation expense surcharges of an unknown amount on ASFF cases and did
           not have cost accounting information to identify the expense for each ASFF case.
This occurred because DSCA did not have adequate policies and standard operating
procedures that required the preparation of detailed cost accounting records to support
surcharge rates with actual cost data or to use available cost data when reviewing the
CAS surcharge and transportation expense surcharge. Additionally, DSCA did not have
policies to determine whether it properly used ASFF appropriations when it made
transfers between the administrative and the transportation expense surcharge accounts.

As a result, it was unclear whether DSCA assessed appropriate surcharges to pay for the
actual expenses of administration related to ASFF cases or how much of the $2.8 billion
balance in the administrative, CAS, and transportation expense surcharge accounts
resulted from high surcharge rates for ASFF cases. In addition, DSCA transfers of
$130 million from the administrative surcharge account to clear deficits in the
transportation surcharge account may have resulted in the use of ASFF appropriations to
subsidize sales of military equipment and services to foreign governments.

Improving the cost accounting procedures and forming a DoD working group to review
current business practices and policies would help implement cost-saving measures, such
as those advocated by the Secretary of Defense, and possibly reduce future estimated
administrative surcharges that DSCA expects to collect for ASFF cases (DSCA expected
to collect $185 million on FY 2012 appropriations). Reduced surcharges on the ASFF
cases would make additional funds available for operations in Afghanistan.



1
    Collected from the inception of ASFF through September 30, 2011.

                                                    7
Cost Accounting Requirements
Federal agencies are required to comply with standard accounting practices established
by the Federal Accounting Standards Advisory Board. These standards have included
cost accounting since 1997. DoD’s policy to comply with these standards is included in
DoD Regulation 7000.14-R, “DoD Financial Management Regulation” (DoD FMR),
which provides specific guidance related to pricing and cost accounting for goods and
services.

For example, the DoD FMR, Volume 15, Chapter 7, “Pricing,” mandates that DoD
components add an administrative surcharge to all FMS cases to recover the full costs
required to develop, execute, and close FMS cases. In accordance with this policy,
surcharge collections must not exceed the full costs of the services provided.

The DoD FMR emphasizes the importance of preparing and maintaining cost information
related to reimbursements collected. DoD FMR, Volume 4, Chapter 19,
Paragraph 190204, “Determining Reimbursements and Setting Fees and Prices,” states
that cost information is an important basis in setting fees and reimbursements. It
recognizes, however, that pricing and costing are two different concepts. The DoD FMR
also states that in the Federal Government, setting prices is a policy matter, but statutory
provisions and regulations may govern it, and as stated in volume 15, chapter 7, DSCA is
required to limit its surcharges to the recovery of full costs.

Further, DoD FMR, volume 4, chapter 19, provides specific guidance about tracking
costs and using the results to price goods and services. It specifically requires DoD
components to comply with the Statement of Federal Financial Accounting Standard
No. 4, “Managerial Cost Accounting and Standards.” This includes establishing a
consistent methodology to accumulate costs of the resources required to produce goods
and services. Components should identify these costs by activity. Specifically,
paragraph 190405 states:

     The full costs of resources that directly or indirectly contribute to the production of outputs
     should be assigned to outputs through cost methodologies or cost finding techniques that
     are most appropriate to the segment’s operating environment and should be followed
     consistently. The cost assignments should be performed using the following methods listed
     in the order of preference: (a) directly tracing costs wherever feasible and economically
     practicable, (b) assigning costs on a cause-and-effect basis, or (c) allocating costs on a
     reasonable and consistent basis.

USACE and AFCEE Maintained Adequate Cost
Accounting Records
Both USACE and AFCEE maintained accounting records that included direct costs.
USACE was also able to allocate a percentage of its indirect costs to each project, thus
recouping the full cost of the services provided. The Economy Act requires Federal
agencies to recoup the actual cost of providing goods and services to other Federal
agencies. This includes an appropriate amount of indirect costs.


                                                     8
For example, for one project, CSTC-A provided a military interdepartmental purchase
request to AFCEE for $24.4 million to build administrative buildings for the Afghan
Ministry of Defense. AFCEE tracked its personnel costs, the amount of contractor
support used to complete the project, and travel expenses. AFCEE billed its actual
expenses, which were $735,639, and collected reimbursement in the same amount.

DSCA Needed Better Cost Accounting Records and
Management of Surcharge Accounts
DSCA collected administrative surcharges of approximately $848 million on cases
funded by FY 2005 through FY 2011 ASFF
appropriations through September 30 2011, but                DSCA lacked sufficient
either did not maintain actual expense records that      documentation to show that the
directly supported the surcharge collections or did      administrative surcharge rate it
not rely on existing cost accounting information       assessed on FMS cases funded by
when setting its rates. Specifically, DSCA lacked          ASFF appropriations was a
sufficient documentation to show that the               reasonable estimate of the actual
administrative surcharge rate it assessed on FMS                 costs incurred.
cases funded by ASFF appropriations was a
reasonable estimate of the actual costs incurred. In addition, DSCA did not always
identify CAS and transportation expenses for each ASFF case and adjust reimbursement
to the actual cost.
Administrative Surcharge Rate
DSCA needed to improve its cost accounting for the administrative surcharge account so
that the surcharges collected represented a reasonable estimate of DSCA costs incurred.
Table 2 shows the amount of administrative surcharges collected on cases funded by
FY 2005 through FY 2011 ASFF appropriations.

         Table 2. Administrative Surcharges Collected on Cases Funded by
                      FY 2005-FY 2011 ASFF Appropriations
                                   (in millions)
                  Fiscal Year           Amount Collected
                   2005                           $26.3
                   2006                            46.6
                   2007                           243.6
                   2008                            91.7
                   2009                           177.8
                   2010                           148.4
                   2011                           114.0
                     Total                        $848.4

From FY 2007 through FY 2011, the DSCA administrative surcharge account balances
for all FMS activity grew significantly. DSCA personnel explained that surcharge
collections exceeded forecasted levels because sales levels exceeded expectations. In
addition, most of the administrative surcharge collections occurred well in advance of the

                                            9
services provided and the expenditures to pay for them. During the audit, DSCA officials
stated that this resulted in the significantly increased balances in the administrative
surcharge account. The administrative surcharge account total collections, expenditures,
and account balance for FY 2007 through FY 2011 appear in Figure 3.

                 Figure 3. DSCA Administrative Surcharge Account
                   Collections, Expenditures, and Account Balance
                                  FY 2007-FY 2011
                                     (in millions)

 $2,500
                                                                                  $2,239 
  2,250
                                                                $1,979 
  2,000

  1,750                                       $1,674 

  1,500
                              $1,193 
  1,250

  1,000
                                              $1,053                               $1,008 
              $685 
    750                         $924                             $906 
                                                                                   $748 
                 $648                                           $601 
    500
                                                 $572 
    250        $354             $416 

      0
              FY 2007          FY 2008        FY 2009           FY 2010           FY 2011

               Account Collections       Account Expenditures            Ending Balance


The ending balance in the administration surcharge account increased 227 percent
($685 million to $2,239 million) from FY 2007 to FY 2011, and related account
expenditures increased 111 percent ($354 million to $748 million). DSCA personnel
stated that the ending balance increase was related to the fact that they collected between
50 percent and 100 percent of the administrative surcharges at the time DSCA and
CSTC-A implemented each case, but the related administrative case management
services occurred over the life of fulfilling the order, which could be years. DSCA
personnel explained that cases for purchases of military equipment could involve
complex contracts that take years to fully complete.

DSCA did not maintain records that tracked the associated cost or expenses of providing
the goods and services. DSCA reported the collections and disbursements related to the
administrative surcharges in the administrative surcharge account, which is a subaccount

                                            10
within the FMS Trust Fund. DSCA did not segregate funds collected from ASFF cases
from funds collected from traditional FMS cases.

DSCA collected administrative surcharges under the authority of the Public Law 90-269,
“Arms Export Control Act,” October 22, 1968, as amended, section 21(e)(1)(A), and the
“Economy Act,” as amended, section 1535, title 31, United States Code.
Section 21(e)(1)(A) requires that all FMS cases include a charge stated at an average
percentage rate to recover the full cost of the administration of sales. While the Arms
Export Control Act governs FMS cases, the Economy Act governs the ASFF-funded
orders because they are not FMS cases paid by foreign countries’ funds.

The Economy Act requires goods and services to be sold to other government
organizations at cost. DSCA assessed an administrative surcharge at the rate of
3.8 percent of the value of each case since 2006. DSCA maintained that the 3.8 percent
rate charged to ASFF was the best estimate of its costs in accordance with the Economy
                                       Act. However, DSCA did not determine its
      DSCA did not determine its       3.8 percent administrative surcharge rate based on
      3.8 percent administrative       historical expenses (for example, personnel
       surcharge rate based on         compensation and travel, among other operating
         historical expenses.          expenses). Instead, DSCA based its determination
                                       on projections of cash flow (collections and
disbursements), with the objective of maintaining a surcharge account balance it judged
to be necessary to maintain a “healthy balance” for continuing operations, even though
DSCA was required to limit the rate charged to the recovery of full costs. In ensuing
reviews of the surcharge account and rate, DSCA has continued to perform similar cash
flow analyses to judge whether the surcharge account balance and rate were appropriate.

DSCA prepared various supporting documentation when it made its determination of the
3.8 percent rate in 2005. However, DSCA policy did not require the identification and
collection of historical costs to support the rate determination. DSCA personnel
acknowledged that DSCA did not have a policy or standard operating procedure requiring
cost accounting for actual costs to support the 3.8 percent rate directly. In its
determination of the surcharge rate in 2005 and reviews in subsequent fiscal periods,
DSCA did not use detailed cost accounting to determine that the 3.8 percent
administrative surcharge rate was an appropriate estimate of actual costs. While a cash
flow analysis might include some elements of cost accounting, DSCA should have used
appropriate detailed cost accounting (such as accounting for employee time by specific
cases) to determine whether its administrative surcharge rate was an appropriate estimate
of actual costs of the services provided.

For example, one case reviewed for the purchase of radios for ANSF, valued at
$117 million, demonstrated a need for improved cost accounting records. Of the case
value, $110.1 million was subject to DSCA’s administrative fee, which resulted in the
collection of $4.1 million. DSCA was not able to relate the specific expenses anticipated
or incurred for the project to the amount collected. After depositing the funds in the
administrative surcharge account, DSCA was not able to track the use of the funds to

                                           11
reimburse the performing activity for its costs. DSCA did not require performing
activities to track the individual personnel and other direct costs for specific cases.
Instead of charging each case for the costs of case administration, the performing activity
requested funding through DSCA’s annual budget process for the administrative
surcharge account. Had DSCA required and used better cost accounting records, it would
have had assurance that the amount charged for administrative fees reflected the actual
expenses incurred.

Contract Administration Services Surcharge Rate
DSCA did not rely on existing cost data in reviewing the CAS surcharge account.
Specifically, DSCA did not use existing cost data from the Defense Contract
Management Agency and Defense Contract Audit Agency to set the CAS rates assessed
on ASFF cases to ensure that it limited collections to full cost recovery. DSCA personnel
did not match the CAS expense billings to the surcharge amounts collected on each FMS
case even though they indicated these two agencies maintained sufficient cost accounting
information for this analysis and provided DFAS the information.

                                       Matching expenses to actual costs might have
    Matching expenses to actual        ensured that the CAS surcharge was a reasonable
   costs might have ensured that       estimate of the actual costs incurred. In addition,
      the CAS surcharge was a          DSCA could not determine the amount of CAS
     reasonable estimate of the        surcharges it collected for ASFF cases. We
        actual costs incurred.         requested that DSCA provide the amount it
                                      collected from FY 2007 through FY 2011. DSCA
indicated that its accounting records could not segregate the funds in the CAS surcharge
account by case. Therefore, DSCA could not provide the total amount of surcharges
collected from ASFF appropriations for CAS.

DSCA has assessed a CAS surcharge at 1.5 percent of the contract values included in
FMS cases since 2002. DFAS paid contractors for goods and services delivered for
specific cases using the Services’ disbursement systems. The systems then reported the
transactions to the Defense Integrated Finance System (DIFS), the accounting system for
the FMS Trust Fund. The disbursement triggered the collection of the CAS fee from the
case to a separate account in the FMS Trust Fund. When it collected the CAS, DSCA
lost visibility to match the case with the expenses paid.

The Defense Contract Management Agency and Defense Contract Audit Agency
primarily performed contract management, quality assurance and inspection, and audit
services on contracts for ASFF-funded cases. Those agencies billed at standard rates, and
DSCA paid for their services from the CAS account.

During FY 2007 through FY 2011, the DSCA CAS surcharge account balance for all
FMS activity grew significantly. DSCA personnel explained that surcharge collections
exceeded forecasted levels because sales levels did not decline as projected.
Figure 4 presents the total collections, expenditures, and account balance in the CAS
surcharge account for FY 2007 through FY 2011.

                                            12
       Figure 4. DSCA Contract Administration Services Surcharge Account
   Collections, Expenditures, and Account Balance FY 2007-FY 2011 (in millions)
 $600
                                                                                     $525 

  500
                                                                 $414 
  400

                                             $284 
  300

                              $171 
  200                                                            $226                $223 
             $104                             $185 
                               $146 
  100
               $99                                                                   $112 
              $64              $79            $72                 $96 
    0
            FY 2007          FY 2008         FY 2009            FY 2010            FY 2011

               Account Collections       Account Expenditures             Ending Balance


The ending balance in the CAS surcharge account increased 405 percent ($104 million to
$525 million) from FY 2007 to FY 2011, and related account expenditures increased
75 percent ($64 million to $112 million). DSCA personnel stated that they collected the
CAS surcharges at the time the providing agencies delivered the ordered goods and
services, while certain CAS services, in particular, contract audit and closure, occurred
well after delivery.

DSCA policy did not require the use of cost                   Even though the CAS
accounting data during reviews of the CAS                   surcharge is limited to the
account. By not identifying the direct CAS                   recovery of full cost, the
expenses to each FMS case funded by ASFF                   balance in the CAS account
appropriations and comparing those to the                 has grown from $104 million
surcharge collected, DSCA had a risk that it              to $525 million over the past
undercharged or overcharged individual cases for                     5 years.
CAS.

Even though the CAS surcharge is limited to the recovery of full cost, the balance in the
CAS account has grown from $104 million to $525 million over the past 5 years. This
account contains funds from both ASFF and FMS cases for foreign countries. DSCA
indicated the balance has grown because more ASFF cases and FMS cases have been
using contracts to acquire military equipment.

CAS is collected on contract deliveries and progress payments. DSCA needed to use
actual CAS expenses, when available, to set the CAS surcharge rates and assess the CAS
surcharge account balance. Therefore, DSCA needs to obtain adequate cost accounting
                                            13
data to identify these direct expenses for each ASFF case because these are appropriated
funds. This would allow it to determine when the collected amounts do not match the
actual expenses and take appropriate actions. DSCA would then ensure that it collected a
fair amount of CAS expenses on each case, including the ASFF appropriations.

Transportation Fee Rate
DSCA did not always segregate ASFF-related transportation fees and expenses from
traditional FMS transportation fees and expenses. Additionally, DSCA could not match
the amounts collected from specific cases with the
actual expenses and amounts billed by the                    DSCA could not match the
U.S. Transportation Command (USTRANSCOM).                      amounts collected from
When deficits occurred in the transportation expense        specific cases with the actual
account, DSCA transferred funds from the                    expenses and amounts billed
administrative surcharge account rather than identify            by USTRANSCOM.
the specific transportation expenses that caused the
deficit and collect payment from the appropriate FMS cases. We requested that DSCA
provide the amount of transportation fees it collected for ASFF orders from FY 2007
through FY 2011. DSCA indicated that its accounting records did not segregate
transportation fee collections by case funding, and the time and cost of compiling such
information based on a review of all collections for the period requested would be
extensive. Therefore, DSCA could not provide data to determine the total amount of
transportation fees collected from ASFF appropriations.

DSCA assessed a transportation surcharge on each FMS case based on a table of
estimated transportation rates for various modes of transportation for delivery of ordered
goods. During case development, security assistance personnel entered a planned mode
of transportation for the goods ordered on each FMS case. As the Army delivered goods
to ANSF, it recorded the delivery in its logistics system, which then posted it in DIFS.
When DSCA received delivery notifications, it collected a transportation surcharge on
each case based on the shipping mode and the USTRANSCOM rate entered when the
case was established. DFAS recorded this collection into the transportation fee account,
which contains funds from ASFF cases as well as FMS cases. After DSCA collected the
fee, USTRANSCOM would submit a bill to DFAS for reimbursement. A single
shipment could contain goods for multiple ASFF orders or FMS cases; however, the
billings lacked enough detail to identify the specific cases that were included in the
shipment billed.

DFAS paid the USTRANSCOM billings with funds in the transportation account and did
not track the summary expenses back to specific cases. DFAS recorded all collections
and disbursements in the transportation expense account, which like the administrative
surcharge account, is a subaccount within the FMS Trust Fund.

During FY 2007 through FY 2011, the DSCA transportation surcharge account balance
for all FMS activity grew significantly. DSCA personnel explained that surcharge
collections exceeded forecasted levels because sales levels did not decline as projected.


                                            14
Figure 5 presents the total collections, expenditures, and account balance in the
transportation expense account for FY 2007 through FY 2011.

 Figure 5. DSCA Transportation Expense Account Collections, Expenditures, and
                Account Balance, FY 2007-FY 2011 (in millions)
 $400

  350                                                                                $335 


  300
                              $257           $ 266                                   $313 

  250
                               $254                             $203 
  200                                          $232 


  150                                                           $185 
            $117 
  100
             $80                                 $46                                  $50 
   50                                                             $28 
              $9               $12 
    0
            FY 2007          FY 2008         FY 2009            FY 2010            FY 2011
               Account Collections       Account Expenditures             Ending Balance


The ending balance in the transportation surcharge account increased 456 percent
($9 million to $50 million) from FY 2007 to FY 2011, and related account expenditures
increased 168 percent ($117 million to $313 million).

A deficit occurred when DFAS, on behalf of DSCA, disbursed more funds from the
transportation account than were collected. In FY 2008 and again in FY 2011, DSCA
transferred funds from the administrative surcharge account to avoid deficits in the
transportation account balance. Specifically, on March 18, 2008, and then again on
October 21, 2010, DSCA transferred $80 million and $50 million, respectively, between
those accounts. DSCA personnel stated that the key reasons the deficit occurred were the
increase in fuel costs without a resulting increase in the amount collected and the
requirement to use the Defense Travel System to move goods for ASFF.

DSCA assessed a transportation fee on the original ASFF order based on the rates
prescribed by USTRANSCOM and collected that amount upon delivery. DSCA did not
match transportation billings to the original order and determine that an additional
transportation amount was due. Its policy did not require the matching of collections to
the expenses, and the billings generally did not contain adequate detail to allow the
matching of the surcharge collected to the expense incurred. Further, DSCA did not
perform a detailed analysis of the deficit in the transportation account by reviewing the

                                            15
accounting data to determine the transportation expenses that caused the overall account
deficit. Instead, DSCA authorized the transfer of funds from the administrative surcharge
account to replenish the account balance. DSCA should have an adequate cost
accounting system to identify these direct expenses for each FMS case to allow DSCA to
determine when it should return surcharges collected in excess of actual expenses and
adjust the rates charged on future cases.

Management Actions on Transportation Expenses
DSCA management reviewed the transportation account and implemented two actions.
First, DSCA adjusted the transportation rate for all shipments to Afghanistan to provide
increased collections into the transportation surcharge account and to increase the balance
available to pay actual expenses. This action reduced the likelihood of deficits, but did
not change the accounting procedures for the transportation surcharge account to match
actual expenses and surcharge collections.

Second, DSCA established special transportation cases, totaling $106 million in FY 2010
and $375 million in FY 2011, funded by ASFF appropriations. DSCA and the
U.S. Army Security Assistance Command then required coordination of all expedited
shipments to Afghanistan to ensure the payment of actual transportation expenses for
those shipments from the ASFF transportation cases. As of September 30, 2011, the
remaining unobligated balances on these cases totaled $4.7 million and $323.2 million,
respectively.

While DSCA did not implement procedures to match transportation billings to each
ASFF case, it did match expedited transportation costs for ASFF orders to the
appropriations available to fund them. However, even though DSCA took action to
mitigate the causes of deficits in the transportation surcharge account, it needed to
develop and implement improvements that would result in sufficient detailed cost
accounting to match actual transportation expenses to the surcharges collected.

DSCA Cost Accounting Did Not Identify Actual Costs to
Support Surcharges Assessed on ASFF Orders
It was unclear whether DSCA assessed appropriate surcharges to pay for the actual
expenses of administration and CAS related to ASFF cases or how much of the ending
balances of $2,239 million in the administrative surcharge account and $525 million in
the CAS surcharge account (see Figures 3 and 4) resulted from high surcharge rates. The
increases in the ending balances in these two accounts since FY 2007, amounting to
$1,975 million,2 raised questions about DSCA’s rate-setting and collection
methodologies.




2
 Combined increases in the administrative surcharge account of $1,554 million ($685 million to
$2,239 million) and the CAS account of $421 million ($104 million to $525 million).

                                                   16
Cost accounting has been a requirement for Federal agencies since 1997, and the DoD
Inspector General reported on DSCA’s lack of cost accounting in that year.3 However,
DSCA has not fully implemented cost accounting. DSCA might have determined
different surcharge rates if it had completed appropriate cost accounting analyses. Also,
DSCA could not show that ASFF appropriations that might have been included in the
transfer of $130 million from the administrative surcharge account to the transportation
expense account were used for the proper purpose. By not identifying actual expenses to
each case funded by ASFF appropriations, DSCA risked paying for transportation costs
related to purchases of military equipment by other foreign countries from the ASFF
appropriations or vice versa.

Cost-Savings Initiatives Needed for ASFF Orders
FY 2012 budget data showed that DSCA would collect about $185 million in fees
associated with ASFF goods and services, unless it implemented cost-saving measures.
In an August 2010 memorandum, the Secretary of Defense outlined numerous efficiency
initiatives designed to reduce duplication, overhead, and excess, and instill a culture of
savings and restraint across the DoD.

We consider the ASFF program, which has to date received about $51 billion, significant
and one that should be included as part of DoD’s cost-saving initiatives. With millions of
                                        dollars being charged for administrative fees on
     With millions of dollars being     ASFF cases, a process should exist to
    charged for administrative fees systemically review and potentially reduce these
       on ASFF cases, a process         fees. Such a review could achieve cost-savings
      should exist to systemically      throughout DoD. Accumulating and tracking cost
     review and potentially reduce      data would enable DSCA to comply with this
               these fees.              initiative and maintain adequate cost accounting
                                        data that support future rate changes.

The ASFF appropriation for FY 2012 was $11.2 billion. If DSCA receives FY 2012
ASFF appropriations in a percentage similar to that received in FY 2011, we estimate that
DSCA would collect $185 million in administrative fees without sufficient cost data and
associated fund management to support the charges. Implementing actions that result in
the preparation of detailed cost accounting records that directly support DSCA surcharge
rates would provide DSCA and DoD with a way to demonstrate that the fees charged
relate directly to the cost of providing the ASFF-related goods and services. This cost
accounting information would also provide more support for the fees that DSCA must
assess to comply with the requirements of the Economy Act. In addition, DSCA should
have better cost accounting records and controls to safeguard appropriated funds so they
do not subsidize sales of U.S. military goods and services to other foreign countries.




3
 DoD IG Report No. 97-227. “Foreign Military Sales Administrative Surcharge Fund,” September 30,
1997.

                                                 17
DoD Would Benefit From Forming a Working Group on Fee and
Surcharge Rate-Setting Policy for ASFF Orders
Reduced charges for support costs could make additional funds available for operations
in Afghanistan. Since fulfilling the requirements of the ASFF program requires
coordination between numerous activities within and outside DoD, no single component
within DoD can accomplish the program’s mission alone or without impacting other DoD
activities. To help ensure that DSCA prepares appropriate cost accounting information
and establishes appropriate surcharge rates and surcharge-setting policies, DoD would
benefit from forming a working group to review current business practices and policies
associated with fees and surcharges assessed on ASFF orders.

The main objective of the working group should be to review the policies associated with
fees and surcharges assessed on ASFF orders, the supporting documentation that supports
the costs associated with the fees and surcharges, and the amount of fees and surcharges
assessed. The working group should also provide a forum for agencies to elevate
concerns.

DoD Directive 5111.1, “Under Secretary of Defense for Policy (USD(P)),” December 8,
1999, makes the USD(P) responsible for establishing policies and providing oversight
and supervision in the programming and execution of contingency operations and gives
USD(P) direct authority over DSCA. USD(P) is in the best position to serve as the chair
of the working group as a result of these responsibilities.

Additionally, the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
DoD (USD[C]/CFO) should serve as a key participant of the working group. DoD
Directive 5118.03, “Under Secretary of Defense (Comptroller) (USD(C))/Chief Financial
Officer (CFO), Department of Defense,” January 6, 1997, provides that USD(C)/CFO is
responsible for reviewing the fees charged within DoD. The Directive charges
USD(C)/CFO to:

       Review, at least on a biennial basis, the fees, royalties, and rents and other charges
       imposed by the Department of Defense for services and things of value it provides, and
       make recommendations on revising those charges to reflect costs incurred by it in
       providing those services and things of value.

Other members of the working group could include personnel from the Under Secretary
of Defense (Acquisition, Technology, and Logistics), NATO Training Mission–
Afghanistan, Combined Security Transition Command–Afghanistan, DSCA, and DFAS.

Defense Security Cooperation Agency Comments
on the Finding
We received comments on the finding in our draft report from the Director, Defense
Security Cooperation Agency. The Director disagreed that DSCA did not maintain
adequate cost accounting and stated the report was based on “incorrect assumptions that
charging general administrative costs on an average percentage basis is an impermissible
cost allocation system.” The Director further stated that a separate system for tracking

                                                 18
the actual surcharge amounts specific to the ASFF program was not authorized, funded,
or cost-effective and that the Deputy Secretary of Defense did not include any such
directive in the memorandum that instructed DSCA to support ASFF. Furthermore, he
stated that the establishment, application, and management of the surcharge accounts are
in compliance with the Economy Act and the DoD FMR.

The Director also stated that the percentage rate of the FMS surcharge is set so that costs
are recovered but a profit is not made by DSCA. He further stated that the FMS
Administrative Surcharge represents a method that allocates cost on a reasonable and
consistent basis.

In addition, the Director stated that DSCA conducted annual reviews of the FMS
administrative surcharge account and further analyzed the account every 5 years to
determine whether a rate change was warranted. He stated that DSCA coordinated the
results of these reviews with USD(C)/CFO. Further, he stated that the development of
CAS rates was the responsibility of USD(C)/CFO and that DSCA coordinated its
transportation surcharge policy with the USD(C)/CFO.

Our Response
DSCA lacked sufficient cost accounting to determine whether the surcharge rates set as
an average percentage in accordance with the Arms Export Control Act were a
reasonable estimate of the actual costs of providing the goods and services under the
Economy Act. We did not question whether DSCA’s policy of charging general
administrative costs on an average percentage basis was a permissible cost allocation
system. When DSCA data showed $2.2 billion of accumulated surcharge account
balances as of September 30, 2011, we requested that DSCA provide cost accounting
support to verify that it could support its surcharge collections with actual costs. DSCA
officials stated that they did not perform or require detailed cost accounting records for
the surcharge accounts.

The Director stated that a separate system for tracking the actual surcharge amounts
specific to the ASFF program was not authorized, funded, warranted, or cost-effective.
Although our finding stated that DSCA did not maintain adequate cost accounting
records, that conclusion did not assume that DoD would need to create a separate system
to maintain such records. The information in our report indicated that DSCA could work
with its existing systems and those of the implementing agencies, USTRANSCOM, and
CAS providers to ensure that DSCA could appropriately identify actual expenses paid
from the surcharge accounts for meaningful cost analysis. DSCA could develop adequate
cost accounting records to support its surcharge rates and the accumulated balances in the
surcharge accounts without the creation of a new system. As stated in our report, we did
not share DSCA’s view with regard to its compliance with the Economy Act and the
DoD FMR for its surcharge management. We stated that DSCA should improve its cost
accounting because its reviews, analyses, and reliance on the budget process did not
adequately support its surcharge rates as reasonable estimates of actual costs.



                                            19
Additionally, the DSCA Director stated, “The percentage rate of the FMS surcharge is set
so that costs are recovered, but a profit is not made by DSCA.” This statement was not
supported by any cost analysis presented to us during our audit. As indicated in our
report, DSCA’s cost accounting records were not adequate to make this determination.
The Director further stated, “The FMS Administrative Surcharge represents a method that
allocates cost on a reasonable and consistent basis.” This statement was not supported by
any cost analysis presented to us during our audit. We would agree that assessing the
FMS administrative surcharge on an average percentage basis was a reasonable and
consistent basis of collecting revenues to recover administrative costs. However, without
adequate cost accounting records, DSCA remained unable to determine whether the
assessed surcharges were reasonable estimates of actual costs.

Recommendations, Management Comments,
and Our Response
1. We recommend that the Under Secretary of Defense (Policy) coordinate with the
Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, and other
appropriate DoD activities to establish a working group. The working group should
review surcharge and fee policies, rates, and accounting requirements related to
Defense Security Cooperation Agency surcharges on Afghanistan Security Forces
Fund orders, with the goal of reducing future support costs and refunding
surcharge collections that exceeded actual costs.

Under Secretary of Defense (Policy) Comments
The Chief of Staff, responding for USD(P), disagreed with establishing a working group
and stated that DSCA had already established an executive steering committee to design
and implement the Security Cooperation Enterprise System. He stated that the executive
steering committee co-chaired by the Deputy Chief Management Officer and the
Director, DSCA, includes the key stakeholders for the FMS process; therefore, a new
working group would only duplicate that effort.

In addition, he explained the acquisition approach DSCA was taking to build a new
information technology system to enhance transparency, improve accounting procedures,
and strengthen internal controls for the FMS program. Further, he stated that in lieu of
creating an additional working group, DSCA would leverage the existing executive
steering committee to address the finding in our report.

Our Response
The Chief of Staff’s comments were partially responsive. We agree that the executive
steering committee can fulfill our recommendation if the implementation process for the
enterprise resource planning system includes consideration of DSCA’s surcharge and fee
policies, rates, and accounting requirements.

We request that the USD(P) provide specific details of the committee’s plans that would
meet the intent of our recommendation. The process for creating an enterprise system
could take years to accomplish; therefore, we encourage USD(P) to consider establishing

                                           20
the plan for the committee to make the review we recommended as soon as possible. The
decisions from that review would provide the guidance necessary to include adequate
cost accounting in the new system.

2. We recommend that the Director, Defense Security Cooperation Agency,
implement the “DoD Financial Management Regulation,” volume 4, chapter 19, and
establish policies and standard operating procedures for maintaining cost
accounting records for the administrative, contract administration services, and
transportation surcharges that ensure that DSCA:

       a. Assesses an administrative surcharge rate on cases funded by Afghanistan
Security Forces Fund appropriations supported by analysis that shows the rate is an
accurate estimate of actual costs.

       b. Adequately identifies the actual contract administration surcharge and
transportation expenses for reimbursement from the appropriate Afghanistan
Security Forces Fund case.

       c. Establishes controls to ensure segregation between appropriated and
foreign country funds in the surcharge accounts to prevent Afghanistan Security
Forces Fund appropriations from being used to subsidize costs of Foreign Military
Sales cases.

Defense Security Cooperation Agency Comments
The Director, DSCA, disagreed and stated that a former Deputy Secretary of Defense
directed that ASFF programs be executed through existing systems and processes
managed by DSCA. He stated that DoD FMR Volume 4, Chapter 19, “Managerial Cost
Accounting,” provides that entities can develop standard rates as a tool to estimate future
costs and conduct variance analyses but that cost data may be adjusted to meet budgetary
information needs.

Next, the Director stated that Statement of Federal Financial Accounting Standard No. 1,
“Accumulate and Report Costs of Activities on a Regular Basis for Management
Information Purposes,” allows for each reporting entity to determine the appropriate
detail for its processes and procedures. He also stated that DSCA did not mandate the
specific systems or level of detail by which an implementing agency must collect and
report data. Further, he stated that DSCA developed the surcharges at an overall FMS
program level which provided the appropriate level of detail and precision. Lastly, he
stated that DSCA was developing the Security Cooperation Enterprise Solution enterprise
resource planning system to expand the integration of financial and logistics systems.

Our Response
The DSCA Director’s comments were partially responsive. Our recommendation that
DSCA establish policies and standard operating procedures for maintaining cost
accounting records for its surcharges did not require the agency to create a new
accounting system. DSCA could support its surcharges through analysis of existing data,

                                            21
such as matching bills submitted to pay for administrative costs to the surcharges
collected on cases, encouraging implementing agencies to initiate timekeeping that
attributes employees’ time to specific cost centers, or overall analytical procedures that
correlate actual costs to output measures that DSCA would determine were meaningful.
Cost accounting records relating actual historical costs of the services provided to the
actual execution of cases would be more persuasive support than the budgeting processes
and cash flow reviews discussed by DSCA. We encourage DSCA to perform the
variance analysis it refers to in the DoD FMR and compare the surcharge rates it collects
to the actual expenses incurred in providing its services. DSCA should maintain
adequate cost accounting records to support its surcharge rates as reasonable estimates of
actual costs at either the overall FMS program or individual case level and fully comply
with the Economy Act.

While the Director’s comments included plans to implement an enterprise resource
planning system, they did not include the specific steps that DSCA would take to
improve its cost accounting, nor milestones indicating when it will implement the
enterprise resource planning system. DSCA should include cost accounting as part of its
Financial Improvement Plan.

We request that the Director provide additional comments indicating the cost accounting
analyses that it will perform to support its surcharge rates pending its long-term solution
of a new enterprise resource system. In addition, we request that the Director provide
system specifics related to improved cost accounting and milestones for implementation
of the new system.




                                            22
Appendix. Scope and Methodology
We conducted this performance audit from March 2011 through June 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted entrance conferences and site visits to determine the fees assessed on
intragovernmental purchases funded by Afghanistan Security Forces Fund (ASFF)
appropriations and reviewed whether the accounting methods the providing agencies used
supported those fees with actual costs. Our conferences and visits included the Army
Financial Management and Comptroller (Army FM&C), U.S. Combined Security
Transition Command–Afghanistan (CSTC-A), Defense Security Cooperation Agency
(DSCA), Defense Finance and Accounting Service (DFAS), U.S. Army Security
Assistance Command, U.S. Army Corps of Engineers (USACE), and Air Force Center
for Engineering and the Environment (AFCEE).

We reviewed ASFF funding for FY 2005 through FY 2011 and determined the most
significant fees and surcharges assessed on purchases with ASFF funds. We examined
congressional appropriation bills to establish the total appropriations of $50.9 billion for
the ASFF during those fiscal years. Through Army FM&C, we obtained funding
authorization documents to identify CSTC-A and DSCA as the components having the
obligation authority to execute the funding. We conducted interviews and examined
budget justifications and spending plans, agency manuals and standard operating
procedures, military interdepartmental purchase requests, letters of acceptance for
Foreign Military Sales (FMS) cases, and accounting reports to identify the fees and
surcharges assessed by providing agencies.

We selected the fees and surcharges that applied to the largest dollar volume of purchases
for a further review of costs that support them. We identified the supervision and
administration fee assessed by USACE (between 7 percent and 9 percent); supervision,
inspection, and overhead (4.5 percent) assessed by AFCEE; and the administrative
surcharge (3.8 percent), contract administration services surcharge (1.5 percent), and
transportation surcharge4 assessed by DSCA for detailed review. Neither CSTC-A nor
U.S. Army Security Assistance Command collected fees or surcharges on ASFF orders.
We requested a transaction population of the fees and surcharges collected on ASFF
orders for FY 2010, but the providing agencies did not maintain separate accounts for
ASFF orders.




4
 To assess transportation costs, which were significant, DSCA used a standard schedule that varied based
on mode and distance.

                                                   23
We evaluated whether cost data existed to support the supervision and administration fees
charged by USACE and AFCEE. We conducted interviews and examined standard
operating procedures; memoranda of understanding; military interdepartmental purchase
requests; billings; payroll extracts; and client-prepared worksheets regarding the cost and
reimbursement methodology used when providing planning, architect engineering,
construction supervision, and oversight on infrastructure projects in Afghanistan. We
reviewed AFCEE records that identified the actual costs of its personnel performing
services and compared them to the terms of the applicable memorandum of
understanding and related military interdepartmental purchase request.

To gain familiarity with the processes used by DSCA when it collected administrative,
CAS, and transportation surcharges on ASFF cases, we conducted interviews; reviewed
published agency financial statements, policy memoranda, administrative surcharge
budget guidance, requests, and allotments; and examined the Security Assistance
Management Manual, client-prepared worksheets, training materials, and standard
operating procedures. In DIFS, the accounting system used to track FMS and ASFF
orders, we reviewed the summary-level data transferred from the accounting systems of
the DoD providing agencies.

We obtained the summary-level data of total collections, disbursements, and ending
balances in the surcharge accounts to prepare the charts in our report. We visited DFAS
and examined data extracted from DIFS to show the collection of administrative fees
charged to ASFF cases. We examined DFAS-prepared worksheets that contained the
supporting documentation for monthly reports provided to DSCA. We requested the
transaction listing for the administrative surcharge account and DFAS officials stated the
time and cost to compile such information from the data as currently maintained was
extensive, and they could not provide it. Therefore, we relied on summary data from
DFAS monthly reports to DSCA showing the status of the surcharge accounts and
calculated the changes in the accounts. We examined records from DSCA that
documented its rate setting and monitoring of the surcharges.

Use of Computer-Processed Data
We relied on computer-processed data stored and processed by various DoD components,
such as the TACOM Life Cycle Management Command and the U.S. Army
Communications-Electronics Command. Specifically, we reviewed computer-processed
data contained in DIFS, Standard Operation and Maintenance Army Research and
Development System, and Defense Security Assistance Management System. To assess
the reliability of the data, we reviewed original, hardcopy, supporting documentation,
such as ASFF letters of offer and acceptance and the supporting pricing reports. We did
not observe any discrepancies between the system data and the hardcopy documentation
reviewed. From our assessment, we determined that the computer-processed data were
sufficiently reliable for the purposes of our audit.




                                            24
Prior Coverage on Fees and Surcharges Assessed on
Afghanistan Security Forces Fund Orders
During the last 5 years, the Department of Defense Inspector General (DoD IG), and the
Army Audit Agency (AAA) have issued five reports that discussed fees and surcharges
assessed on Afghanistan Security Forces Fund orders or related costs. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/.

DoD IG
DoD IG Report No. D-2010-062, “Controls Over Funds Appropriated for Assistance to
Afghanistan and Iraq Processed Through the Foreign Military Sales Network,” May 24,
2010

DoD IG Report No. SPO-2009-007, “Report on the Assessment of U.S. and Coalition
Plans to Train, Equip, and Field the Afghan National Security Forces,” September 30,
2009

DoD IG Report No. D-2009-063, “Funds Appropriated for Afghanistan and Iraq
Processed Through the Foreign Military Sales Trust Fund,” March 24, 2009

Army Audit Agency
AAA Report A-2010-0094-ALA, “Foreign Military Sales Process for Iraq and
Afghanistan: U.S. Army Security Assistance Command,” May 3, 2010

AAA Report A-2010-0060-ALA, “Pricing and Funding Security Assistance to Iraq and
Afghanistan: U.S. Army Security Assistance Command,” March 3, 2010




                                          25
Glossary
Administrative Surcharge. Surcharge collected by DSCA to cover the costs of
administering sales made under the Arms Export Control Act. During the period covered
by this report, the administrative surcharge was 3.8 percent for both standard and
nonstandard articles and services.

Community Programs (see Figure 2, page 5). The security assistance systems
supported include the Defense Security Assistance Management System and the fees the
Defense Information Systems Agency charged.

Contract Administration Services Surcharge (CAS). Surcharge collected by DSCA to
cover the costs of: (1) quality assurance and inspection; (2) contract management; and (3)
contract audit. For cases implemented after October 1, 2002, a rate of 0.65 percent
applied to quality assurance and inspection; 0.65 percent to contract management; and
0.20 percent to contract audits, for a total of 1.5 percent.

Defense Agencies (see Figure 2, page 5). Defense agencies include DFAS, Defense
Logistics Agency, National Geospatial-Intelligence Agency, National Security Agency,
Defense Information Systems Agency, and Defense Contract Management Agency.

Direct Reports (see Figure 2, page 5). Organizational divisions that report directly to
DSCA management include the Cash Writing Division, Defense Institute of International
Legal Studies, Defense Institute of Security Assistance Management, and Defense
Security Assistance Development Center.

DSCA Headquarters (see Figure 2, page 5). This term refers to the organizational
element of DSCA responsible for its executive operations as they relate to the FMS
process.

Implementing Agency. The DoD component assigned responsibility by DSCA to
prepare a letter of offer and acceptance and implement the case. The implementing
agency is responsible for overall management of the actions that result in delivery of the
materials or services set forth in the letter of offer and acceptance.

MILDEPS (see Figure 2, page 5). One of the Military Departments within DoD created
by the National Security Act of 1947, as amended; that is, the Department of the Army,
Department of the Navy, and Department of the Air Force.

Other (see Figure 2, page 5). This is a group of miscellaneous organizations and
activities that provide small individual efforts to the FMS process.

Overseas (see Figure 2, page 5). DoD functions not performed within the United States,
including Security Assistance Offices and some Combatant Command Headquarters.


                                            26
Surcharge or Fee. Charge to cover expenses incident to issues, sales, and transfers of
materiel and services that are not included in the standard price or contract cost.
Elements of surcharges include, but are not limited to, packing, crating, handling;
transportation (2nd destination); administration; logistics support; contract administration
services; storage; and staging.

Transportation Surcharge. Surcharge collected by DSCA to cover the cost to the
United States of transporting purchaser materiel using the Defense Transportation System
or commercial services. The transportation surcharge is included as a percentage of
applicable line items.




                                             27
Under Secretary of Defense (Policy) Comments




                 Click to add JPEG file




                                  28
Click to add JPEG file




                 29
Defense Security Cooperation Agency Comments




                 Click to add JPEG file




                                  30
                  DoDIG, Draft Report, Project No. D2011-DOOOFD-0121.000,
        Fees and Surcharges Assessed on Afghanistan Security Forces Fund O rders
                            Need Improved Cost Accounting

                      Defense Security Cooperation Agency Comments:

         This document provides the Defense Security Cooperation Agency (DSCA) response to
the draft audit report referenced above. DSCA non-concurs with the finding and
recommendation presemed in this draft report. The report is based on the incorrect assumptions
that charging general administrative costs on an average percentage basis is an impermissible
cost allocation system. In 2005, Deputy Secretary of Defense (DepSecDef) England directed
DSCA to execute lhe Afghanistan Security Forces found (ASFF) program to immediately provide
defense articles and service.s to Afghan Forces. At no time during the life of the program was
DSCA directed, authoriud, or funded to build a separate cost accounting system to capture the
actual general administrative costs of the ASFF program (one of the many programs managed
through the FMS system). DSCA was assigned the mission to procure goods and services for
DoD because it had an existing resource management and logistics delivery system. Delaying
execution of this mission to plan, design, and construct a separate cost accounting system
connecting the Military Departments (MU..DEPs), the Defense Finance and Accounting Service
(OFAS), and DSCA would not meet the mission timelines, would create duplication of effort
requiring the community to manage the FMS and the ASFF component through separate
systems, increase expenses, and would create capital expenses for DoD for the simple purpose of
substituting one method of authorized cost recovery for another. Further detailed comments
foUow.

        Charging general administrative costs on an average percentage basis to recover the full
estimated cost of administering FMS sales is the method required by the Arms Export Control
Act (AECA). Section 21 (e)(l XA). Application of this method to DoD funded orders placed
through the FMS process is an appropriate method of recouping these costs, and specifically
found to be legally permissible by the DoD Deputy General Counsel (Fiscal) who provided this
position vfa e-mail to DoD Inspector General Counsel on July 6, 2009.


Legal Authority

        The rMS program relies upon unambiguous legal requiremems for charging the general
administrative costs on an average percentage basis. The FMS Trust Fund was established as an
outgrowth of the Mutual Defense Assistance Act of 1949, the statutory predecessor of the Arms
Export Conrrol Act (AECA); charges for FMS program are authorized by the AECA. Section
21(e) (I) of the AECA of 1976. as amended (22 USC 2761(e)(l) (A)), provides that FMS sales
include "appropriate charges for administrative services, calculated on an average percentage
basis to recover the full estimated costs (excluding a pro rata share of fixed base administrative
costs) of administration of sales ... " lt is this authority that DSCA uses in its computation/
application of the FMS Administrative Surcharge.




                                                                31
      The percentage rate of the FMS surcharge is set so that costs are recovered, but a profit is
not made by DSCA. Significant research and analysis goes into determining the appropriate
FMS Administrative Surchar&e as detailed in subsequent sections of this paper.

         The Deputy General Counsel (Fiscal) has been delegated authority from the DoD General
Counsel to establish DoD policy on general fiscal law issues and determine the DoD position on
specific fiscal law problerns. 1 By e-mail dated July 6, 2009, the Deputy General Counsel (Fiscal)
related to the DoD IG Assistant General Counsel that "the Economy Act provides a legal basis
for its [DSCA 's] management of ASFF and lSFF (including the charging of fees that are
calculated to cover the actual costs DSCA incurs in providi.ng management services."


Department of Defense financial Management Regulation <DoD fMRl

       The FMS program is implemented/executed using the guidelines in the DoD Financial
Management Regulation. The establishment and application of rates are found in Volume 15,
Chapter 7, and the management of the surcharge accounts mentioned in the DoD IG report is
consistent with the DoD FMR, Volume 15. Chapter 3, which states that activity in the surcharge
accounts will be analyzed by DSCA and DFAS. This analysis serves as the basis for decisions
by DSCA to redistribute surcharge account balances between these accounts or to revise rates.
DSCA coordinates with DFAS and the Under Secretary of Defense (Comptroller) any rate
change or redistribution of funds between accounts.

        The FMR a lso provides guidance on Economy Act transfers in Volume II A, Chapter 3.
Paragraph 030601 of that chapter provides that, " Reimbursement under the Economy Act is to be
made on lbe basis of actual cost determined by lhe servicing agency." Actual costs include "all
direct costs attributable to providing the goods or services'' and "indirect costs (overhead) to the
extent they have a significant relationship to providing the goods or services".

        The DoD TG recommends that DSCA implement DoD FMR Volume 4, Chapter 19.
Volume 4, Chapter 19 addresses the Federal Accounting Standards Advisory Board (FASAB)
Concepts and Standards applicable to Statement of Federal Financial Accounting Standards
(SFFAS) 4. The surcharge approach is consistent with DoD FMR Volume 4 , Chapter 19,
paragraph 190405. which provides that a permissible cost assignment method includes
"allocating costs on a reasonable and consistent basis." The FMS Administrative Surcharge
represents a method that allocates cost on a reasonable and consistent basis. The SFFAS 4.
Concept3 aUows that entities "can develop standard rates as a tool to estimate future costs and
conduct variance analysis ... cost data should be consistent with the basis of accounting and
recognition/measurement used in financial reporting, but may be adjusted to meet budgetary
information needs." While the basis for application of the 3.8% administrative surcharge fee is
found in lbe Arms Expon Control Act, its application also is in line with this concept. SFFAS 4,
Standard I, does not specify the degree of complexity or sophistication of any managerial cost
accounting process. Further, it allows for each reporting entity to determine the appropriate
detail for its "processes and procedures based on several factors..'' Within these factors , there are
several that are considered by DSCA: ( I) nature of the operations. (2) precision desired and
1 DoD   DirectiveS 145.01. May 2, 2001
                                                  2




                                                                  32
needed in cost information, (3) practicality of data collection and processing, and (4) cost of
installing, operating, and maintaining the cost accounting process." LasUy, Standard I
recognizes that organization enterprise resource planning (ERP) systems should be leveraged to
support this cost collection.


Financjal Process

        FMS has a well developed resource management structure for defining activities funded
with the FMS Administrative Surcharge, for determining requirements for the annual Program
Objective Memorandum (POM) and budget execution process, for accounting for program direct
costs, and for detennining proper surcharge rates and expenses. Requirements determination for
the FMS enterprise mirrors existing USG and DoD processes for appropriated funds. All
recipients of FMS Administrative Surcharge funds are required to present and defend to the
Director, DSCA, complete resource needs for a three-year POM period. DSCA evaluation of the
resource requests is comprehensive and built upon detailed analysis of existing and projected
FMS case workload for each claimant in the enterprise. Once a consolidated DSCA POM
request for FMS Administrative Surcharge funds is assembled, the request is presemed for
information to the Department of State, Assistant Secretary for Political Military Affairs, and
then for approval to the Office of Management and Budget (OMB), National Security Programs,
International Affairs Division. Following OMB evaluation of the requested annual FMS
Administrative Surcharge Ceiling, the approved ceiling amount is reflected in the Foreign
Operations Annual Appropriation annual appropriation submission of the Department State and
approved by Congress.

        The FMS Administrative Surcharge is developed also to account for the use of the FMS
process by appropriated fund authorities such as ASFF. Budget management and execution of
approved PMS Administrative Surcharge funds mirrors USC and DoD budget processes for
appropriated funds. Prior to the budget year, DSCA evaluates detailed budget submissions from
all recipients of FMS Administrative Surcharge Funds for a standard level of service of case-
related tasks or for support to the overall FMS enterprise. At the beginning of each budget year,
the Director, DSCA, approves the allocation of funds to each Implementing Agency within the
ceiling level approved in the Foreign Operations Annual Appropriation. The allocated funds
allow each Implementing Agency to manage and execute their overall program. During year of
execution, financial management staffs at DSCA and throughout the FMS enterprise closely
monitor and report the execution of FMS Administrative Surcharge Funds by both nctivity and
object class. Expenditures arc compared to resource plans to assess overall perfonnance.
Business Process Reviews across the community assess compliance with FMS management
procedures and policies to ensure operations are conducted as efficiently as possible. Finally, the
FMS community employs rigorous management controls to safeguard the use of resources and
provide reasonable assurances that measures are in place to protect those resources. It should be
noted. however, that the requirement for this level of reporting is not at a specific program or
country level; it is reponed for the FMS program, in toral.

       Creating a separate accounting system for tracking FMS Administrative Surcharge funds
applicable to ASFF would require specific direction and DoD funding, and wou ld create waste,

                                                3




                                                                33
by not utilizing the existing Implementing Agencies' systems. Further, a separate accounting
system would jeopardize and delay the procurement and delivery of articles and service.~ to the
ASFF pro&ram. The DoD IG 3Ssessment of ASFF activities. and specifically the
recommendation that DSCA implement policy (and processes) to reflect actual costs for ASFF
FMS Administrative Surcharge support, would drastically increase support and operating costS
for ASFF activities if implemented. As noted earlier in this document, tben DepSecDef Gordon
England, on 26 July 2005, directed that ASFF be executed by the Department of the Army
through systems and processes managed by DSCA. In so directing, DepSecDef England
inte nded ASFF to be nefit from the lower operating costs made available by the much larger and
already fully functiorung FMS management enterprise. ll ad DepSecDefEngland instead
directed ASFF FMS Administrative Surcharge funds be managed/tracked in accordance witb the
DoD JG recommend ation as a completely insulated and separate enterprise, the DoD would have
had to build, at considerable expense, systems and processes to do so. The costs of an insulated
and dedicated ASFF FMS Administrative Surcharge fund management system would have
involved: (I) significant start-up cost to DoD to build a management and support, (2) higher
overhead costs than the current FMS Administrative Surcharge Rate of 3.8%, and (3) ~
implementation, potentially by years. of ASFF as a result of bui lding an isolated process. Instead
of providing DoD funding to stand-up a management and execution system to track. actual FMS
Administrative Surcharge funds applicable to ASFF, OepSecDef England ' s direction to use
existing DSCA-rnanaged FMS processes for the program in total saved time, capital investment
resources needed to build a stand-alone process, and operating funds requi red to sustain an
independent ASFF enterprise that could never approach economies of scale and operating
efficiencies available through the existing FMS process.


Transportation Cost Accounting

         The application and management of transportation expenses complies with governing
d irection found in DoD Financial Management ReguJation, Volume 15, Chapter 7. Section
070503, and the Security Assistance Management Manual, Chapter 9, Table C9.T4a. The report
addressed the collections into this account. which are based on Delivery Term Code (DTC) rates
applied to the LOAs_ The DTC corresponds to the amount of transportation expected to be
provided (e.g., port-to-port, depot-to-in-country destination); the rate zone correspond.s to the
geographic area where articles are being delivered. When the rransporters./carriers submit a bill,
actual transportation costs are paid from the transportation account. This information (actual
cost data) is used by the i mplementing Agencies to conduct their annual review of the DTC
ratt!S.


Contract Administrat ion Surcharge

       Contract Administration Surcharges (CAS) rates are prescribed in the DoD Financial
Management Regulation, Volume 15, Chapter 3. Section 030308.C., and Chapter 7, Section
070405. CAS rates fund three types of services: (I) quality assurance and inspections, (2)
contract audit, and (3) contract management. The CAS is on ly assessed to LOA lines associated
with couu·actcd st:rvices.

                                                4




                                                                34
Afghanistan Security Forces Fund (ASFF> Management Through the FMS Process

       The FMS Process

        The U.S. Congress passes legislation that authorizes programs and appropriates funds,
and also bas an oversight role for FMS sales. The FMS responsibilities provided in statutes fall
to the Department of State (DoS) and DoD. The Secretary of State provides continuous
supervision and general direction for FMS, including determining whether the United States may
provide defense articles and services to a given country using the FMS process, as well as the
scope and content of the country's program(s). The Secretary of Defense implements programs
to transfer defense articles and services on a government-to-government basis.

         By law and policy, FMS is managed and operated by DoD on a no-profit and no-loss
basis. Countries and international organiu11ions participating in the FMS program pay for
defense articles and services at prices that recoup the actual costs incurred by the United States.
This includes the direct cost of the article or service being purchased and a fee (currently 3.8% of
what the defense articles and/or services cost) to cover the cost of administering the program.
As previously stated, this method of charging the administrative cost is mandated in the
legislation that governs the FMS program- the Arms Export Control Act.

        DSCA is the principal DoD organi.tation through which the Secretary o f Defense carries
out responsibilities for FMS. Sales can be conducted using host nation funds. donor funds, or
Foreign Military Financing (FMF) funds. FMS programs allow the transfer of defense articles
and services to international organizations and friendly foreign governments via sales, grants,
leases, or loans to help friendly nations and allies deter and defend against aggression, promote
the sharing of common defense burdens and help foster regional stability. letters of Offer and
Acceptance (LOAs) may include such diverse efforts as the delivery of defense weapon systems
to foreign governments, U.S. Service school training to international students, and in-country
sustainment activities.

        Within DoD, DSCA oversees financial management of the accounts for 224 countries
and international organizations at the country and program level. DSCA also manages the FMS
Administrative Surcharge budget that funds the FMS sales management structure for the entire
FMS operation. The MILDEPs and other Implementing Agencies (lAs) manage individual sales,
including the development of the LOAs, and the delivery of defense articles and services under
those LOAs. When defense anicles and/or services are required, the requesting country's
representative provides a Letter of Request (LOR) to their U.S. counterpart. Copies are sent to
DoS, Bureau of Politico-Military Affairs, and to DSCA. The original is furnished to the DoD
MfLDEP or other lA that will prepare the response in the form of the LOA . The articles and
services are then provided by the MI LDEPs/lAs from stock or through procurement from
commercial contracts. Financial management of accepted LOAs is a responsibility of DFAS.




                                                 5




                                                                35
        Afghanistan Security Forces Fund CASFf) Funds Management

        ASFF procurements are executed through the FMS system; funds are managed pursuant
to the processes and procedures applicable to that system. The following chart provides an
overview of the FMS Trust Fund. The FMS Administrative Surcharge account is a sub-account
of the FMS Trust Fund and is used to fund the activities necessary to develop, implement,
execute, and close FMS or Building Partner Capacity (BPC) cases such as ASFF.

                                FMS Trust Fund (Admin Account) - Flow of Funds

             a....                                                                                  Mll.Qfl2
             • fotelg11   covnttiw
                                                                         GB.Qq(.       Pri£1)s1ritvoays lor
             ·O.ptof~
                                                                                       Financial Mgt
             •f)e.rltof.$tJU•
             -ltln '?rpltatfO!W ·
                                                                                       Logistic Mgt
             ·Other Ag. . e"-                                                          Acqu:Sition Mgt


                                                                           s.7% I                  2m!!!! I



                                                                         s.-3%     I   camva tty em9 ,,..      1




       Afghanistan Security Forces Fund CASFFl Direction

        In 2005, DepSecDef England mandated specific responsibilities for the execution and
control of ASFF funds. The Secretary of the Army was assigned responsibility for providing
ASFF distribution and accounting support to the Combined Security Transition Command-
Afghanistan (CSTC-A) through DSCA. As part of these duties, the Secretary of the Army is
responsible for proper financial management, fiscal controls. and accountability in accordance
with statute and DoD policies, including the DoD Financial Management Regulation (FMR).
Additional guidance concerning the execution of ASFP was provided by the Under Secretary of
Defense (Comptroller). Further, although he could have directed the establishment of a separate
procurement system, then DepSecDef England elected to execute the urgent and critical needs of
the ASFF program through the existing FMS procurement system.

       The same FMS Administrative Surcharge rate was charged to the ASFF program as was
charged to our other 223 countries and international organizations. Since the initial mandate to
execute ASFF procurement through the FMS system, DoD has not authorized/directed a separate
accounting system be established to track ASFF .FMS Administrative Surcharge transactions or

                                                        6




                                                                        36
provided appropriated funds to the MILDEPs and DSCA to do so. As of July 2012, the ASFF
program has executed 842 cases with an estimated value of $26 billion. The total value of FMS
sales for 2005 to 2011 including ASFF was $ 193.65 billion; ASFF cases never exceeded 20% of
any one year's sales totals.


Summary

        Based on the information provided in this paper and our response to the Finding and!
R.ecommendation provided, DSCA bas substantiated its non-concurrence by addressing the
specitlc areas of concern and pointing out where reconsideration or a better understanding is
required on the part of the DoD IG before finalizing its report.




                                               7




                                                               37
FINDING

Improvement Needed in DSCA Cost Accounting for Surcharges Assessed on Afghanistan
Security Forces Fund Orders. The U.S. Anny Corps of Engineers (USAC£) and the Air Force
Center for Enginuring and the Environment (AFCEE) generally had appropriate cost
accounting procedures when they assessed fees and surcharges while fulfilling Afghanistan
Security Forces Fund (ASFF) orders. However, the Defense Security Cooperation Agency
(DSCA) did not maintain adequate cost accounting records that show whether three of its
surcharge rates represent reasonable estimates of actual cost on Foreign Military Sales (FMS)
cases funded by ASFF appropriations (ASFF cases). Specifically, DSCA collected:

    •   Administrative surcharges of approximately $848 million on cases funded by FY 2005
        through FY 2011 ASFF appropriations. but did nor maintain adequate cost records that
        directly support the surcharge
    •   Contract administrative service (CAS) surcharge of unknown amount on ASFF cases
        and lacked adequate cost accounting to compare actual expenses to surcharges
        collected.
    •   Transportation expenses surcharges on an unknown amount on ASFF cases did not have
        cost accounting information to idemifY the expenses for each ASFF case.

        DSCA non-concurs with this finding for the following reasons:

        In 2005, Deputy Secretary of Defense England assigned Secretary of the Army the
responsibility of providing ASFF distributing and accounting support to the Combined Security
Transition Command-Afghanistan (CSTC-A), through DSCA. Deputy Secretary of Defense
England did not direct the Army to establish a new accounting mechanism for tracking actual
surcharges applicable to ASPF, and did not authorize funds to be expended for such purposes.
but rather directed that di stributing and accounting support for ASFF be done through DSCA.
Pursuant to this direction, ASFF funds are transferred to DSCA to execute under the Economy
Act using the systems and procedures that support the FMS Trust Fund. This complies with the
June 6, 2009, DoD General Counsel advice "that the Economy Act provides a legal basis for its
management of ASFF and ISFF (including the charging of fees that are calculated to cover the
actual costs DSCA incurs in providing management services)," and with Economy Act
procedures as identified in the DoD Financial Management Regulation. DSCA does not have
any other process for the provision of support to foreign governments. FMS programs are
ex~:euted through the Military Departments and Defense Agencies' (implementing Agencies)
financial and logistics systems. Use of these systems and procedures facilitates efficient
execution of the funds in a cost-effective manner.

       The establishment, application and management of the surcharge accounts mentioned in
theDoDIG report, are in compliance with the DoD Financial Management Regulation, Volume
15, Chapters 3 and 7. Specifically:

        •   DSCA conducts annual reviews of the PMS Administrative Surcharge Account and
            further analyzes it every five years to determine whether a rate change is warranted.


                                                 8




                                                                38
           Any change is reviewed, sutffed, and approved/disapproved by the Office of the
           Under Secretary of Defense (Comptroller) (OUSD(C)).

       •   Development of the CAS rates is an OUSD(C) responsibility. The rates are
           prescribed in the DoD Financial Management Regulation, Volume 15, Chapter 3,
           Section 030308.C., and Chapter 7, Section 070405. CAS rates fund three types of
           services: (I) quality assurance and inspections, (2) contract audit, and (3) contract
           management. The CAS is only assessed to LOA Jines associated with contracted
           services. DSCA implements guidance as prescribed in the DoD Financial
           Management Regulation.

       •   The application and management of transportation expenses complies with governing
           direction found in DoD Financial Management Regulation, Volume 15, Chapter 7,
           Section 070503, and the Secoriry Assistance Management Man11al, Chapter 9. Table
           C9.T4a. The report addressed the collections into this account, which are based on
           Delivery Tenn Code (DTC) rates applied to the LOAs. The DTC corresponds to the
           amount of transportation expected to be provided (e.g., port-to-pen, depot-to-in-
           country destination); the rate zone corresponds to the geographic area where articles
           are being delivered. When the transporters/carriers submit a bill, actual transportation
           costs are paid from the transportation account. This information (actual cost data) is
           used by the Implementing Agencies to conduct their annual review of the DTC rates.
           DSCA has taken steps to improve the management and monitoring of the
           transportation surcharge account. In March 2012, we implemented separate
           transportation surcharge accounts for programs funded with U.S. appropriated funds.
           to include the ASFF program. This change wa.~ also coordinated with OUSD(C).

        DSCA's position is that a separate system for tracking the actual surcharge amounts
specific to the ASFF program is not authorized, funded, warranted, or cost effective. The
Agency maintains an adequate resource management system to support the application of these
surcharges in compliance with direction provided in the DoD Financial Management Regulation
and the Secllrity Assistance Management Manual.


RECOMMENDATION# 2

We recommend that/he Director, Defense Security Cooperation Agency. implement the DOD
Financial Management Regulation, volume 4, chapter /9, and establish policies and srandard
operation procedures for maintaining cost accounting records for the administration services,
and transportation surclulrges that eiiSures that DSCA:

        (a) Assesses a11 administrative Surcharge rate on cases funded by Afghanistan Security
Forces Fund appropriations supported by analysis that shows the rate is an accurate estimate of
the actual cost.

      (b) Adequately idemijies tk actual contract administraJion surcharge and transportation
expenses for reimbursement from the appropriate Afghanistan Security Forces Fund cases.

                                                9




                                                                39
       (c) Establish comrols 10 ensure segregarion between appropriated and foreign counl)•
funds in the surcharge accounts 10 prevenr Afghanistan Securiry Forces Fund appropriatio11s
from being used to subsidite cost of Foreign Military Sales cases.

       DSCA non-concurs with the recommendation for the following reasons:

         As stated in the response to the Finding, FMS programs are executed through the
Implementing Agencies' financial and logistics systems. Costs of supporting the FMS program.
in total, are also captured in those financial systems. As noted in this document, DepSecDef
Gordon England directed that ASFF be executed by the Department of the Army through
existing systems and processes managed by DSCA. In so directing. DepSecDef England availed
ASFF of lower operating costs made available by the much larger and already fully functioning
FMS management enterprise.

        DoD Financial Management Regulation {FMR), Volume4, Chapter 19, " Managerial
Cost Accounting," addresses the Federal Accounting Standards Advisory Board (FASAB)
Concepts and Standards applicable to Statement of Federal Financial Accounting Standards
(SFFAS) 4. SFFAS 4, Concept 3, ''Relationship to Budgetary Accounting," and provides that
entities "cao develop standard rates as a tool to estimate future costs and conduct variance
analysis ... cost data should be consistent with the basis of accounting and recognition/
measurement used in tinancial reporting, but may be adjusted to meet budgetary information
needs." Wh ile the basis for application of the 3.8% administrative surcharge fee is found in the
Arms Export Control Act, its application in the case of ASFF-fundcd activities also is consistenet
with this concept.

        SFFAS 4, Standard I, "Accumulate and Report Costs of Activities on a Regular Basis for
Management Information Purposes," provides that "each entity's managerial cost accounting
should meet the basics discussed above ... this standard does not specify the degree of
complexity or sophistication of any managerial cost accounting process." Further. it allows for
each reporting entity to determine the appropriate detail for its "processes and procedures based
on several factors." Within these factors, there are several that are considered by DSCA: (1)
nature of the operations, (2) precision desired and needed in cost information, (3) practicality of
data collection and processing, and (4) cost of installing, operating, and maintaining the cost
accounting process." Lastly, Standard 1 recognizes that organization ERPs should be leveraged
to suppon this cost collection.

        In its oversight role, DSCA does not mandate the specific systems or level of detail by
which an [mplementing Agency must collect and report data- in particular as it rela.tes to its
surcharge computations. The surcharges are not developed on a program, country, or case level;
they are developed at an overall FMS program level based on data obtained from t:he
Implementing Agencies and internally at DSCA. That is the appropriate level of detail and
precision desired and is consistent with the requirements set forth in the AECA.

      Priorities have been established, however, for DoD improvement efforts of the
accounting procedures. internal controls, and lnfonnation Technology (IT) systems that produce,

                                                10




                                                                 40
track and report the Department's financial information. The Department's path to achieving
these priorities, and eventually auditable annual financia.l statements, is contained in the DoD
Financial Improvement and Audit Readiness (PIAR) Plan and Component F inancial
Improvement Plans (FIPs), to include the DSCA FIP. In support of these priorities, Department
leadership is promoting several key initiatives designed to improve the internal controls,
management and transparency of financial budget and cost data in support of ach ieving the
Department's strategic goals and objectives, to include the FMS program.

        DSCA is developing the Security Cooperation Enterprise Solution (SCES) enterprise
resource planning (ERP) system to expand the integration of financial and logistics systems
across the enterprise. The SCES governing body coordinates the implementation of the
MILDEP ERPs with the SCES requirements to improve transparency across the community.

        Therefore, DSCA non-concurs with establishing any specific standard operating
procedures outside its current processes, and SCES development efforts, to provide a level of
detail at a specific country/program level in support of managing surcharge costs.




                                              11




                                                              41
